Audit Report




OIG-13-003
SAFETY AND SOUNDNESS: Failed Bank Review of Alabama
Trust Bank, National Association, Sylacauga, Alabama
October 15, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                          DEPARTMENT OF THE TREASURY
                                                 W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                   October 15, 2012


            OIG-13-003

            MEMORANDUM FOR THOMAS J. CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                      Jeffrey Dye /s/
                                       Director, Banking Audits

            SUBJECT:                   Failed Bank Review of Alabama Trust Bank, National
                                       Association


            This memorandum presents the results of our review of the failure of Alabama
            Trust Bank, National Association (Alabama Trust), located in Sylacauga, Alabama.
            Alabama Trust opened in April 2000 and operated its only office in Sylacauga. The
            bank was owned by Guardian Bancshares, Inc., a Subchapter S corporation,1 also
            located in Sylacauga. The Office of the Comptroller of the Currency (OCC) closed
            Alabama Trust and appointed the Federal Deposit Insurance Corporation (FDIC) as
            receiver on May 18, 2012. As of March 31, 2011, the bank had $51.6 million in
            total assets. As of August 31, 2012, FDIC estimated that the loss to the Deposit
            Insurance Fund is $11.4 million.

            Because the loss to the Deposit Insurance Fund is less than $150 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a review
            of the failure of Alabama Trust that was limited to (1) ascertaining the grounds
            identified by OCC for appointing FDIC as receiver and (2) determining whether any
            unusual circumstances exist that might warrant a more in-depth review of the loss.
            In performing our review we (1) examined documentation related to the
            appointment of FDIC as receiver and (2) interviewed OCC examination personnel.

            We performed our fieldwork during June and July 2012. We conducted this
            performance audit in accordance with generally accepted government auditing

            1
              A Subchapter S corporation is a corporation that elects to pass corporate income, losses,
            deductions, and credit through to their shareholders for federal tax purposes. Shareholders report
            the flow-through of income and losses on their personal tax returns and are assessed tax at their
            individual income tax rates. Among other qualifications, a Subchapter S corporation must have no
            more than 100 shareholders.
OIG-13-003
Page 2

standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Causes of Alabama Trust’s Failure
OCC appointed FDIC receiver based primarily on the following grounds: (1) the bank
had experienced substantial dissipation of assets or earnings due to unsafe or unsound
practices, (2) the bank was in an unsafe or unsound condition to transact business,
(3) the bank had incurred or was likely to incur losses that would deplete all or
substantially all of its capital and there was no reasonable prospect for it to become
adequately capitalized without federal assistance, and (4) the bank was critically
undercapitalized.

The primary cause of Alabama Trust’s failure was its critically deficient management
and direction by its board of directors. The board operated Alabama Trust without
qualified and effective management, adequate strategic and capital planning, or sound
corporate governance processes. As a result, Alabama Trust experienced pervasive
problems related to credit administration including weak underwriting, concerns with
problem loan identification and loss recognition, and conflicts of interest. Alabama
Trust’s growth strategy resulted in significant concentrations of commercial real estate
loans, many of which were aggressively underwritten and poorly documented. This,
combined with management’s failure to effectively adjust to changing economic
conditions and the declining real estate market, resulted in the deterioration of
Alabama Trust’s asset quality, increased credit losses, and declining capital levels.
Also, in 2008, as asset quality was deteriorating, capital was significantly reduced by
transactions resulting from a change in strategic direction by the bank’s holding
company.

During our review, certain matters came to our attention regarding the institution that
we referred to the Treasury Inspector General’s Office of Investigation.


Conclusion
Based on our review of the causes of Alabama Trust’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that since 2009,
when significant concerns with management and the board were identified by
OCC, there were no unusual circumstances surrounding the bank’s failure that
OIG-13-003
Page 3

would necessitate an in-depth review. We provided a draft of this memorandum to
OCC management for comment. In its response, OCC stated that it agreed with our
conclusion as to the causes of Alabama Trust’s failure and that it had no concerns
with our determination regarding an in-depth review of the bank’s failure. The
response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or James
Lisle, Audit Manager, at (202) 927-6345.

Attachments
          OIG-13-003

       Attachment 1
Management Response
                                                       OIG-13-003

                                                   Attachment 2
                                                     Distribution


Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
